Supreme Court, U.S.
FILED

AUG 2 5 2021
OFFICE OF THE CLERK

IN THE

Supreme Court of the United States
George Berka,
Petitioner,
v.

Andrew M. Cuomo,
Respondent.
On a Petition for a Writ of Certiorari to
The Court of Appeals For The 2nd Circuit
PETITION FOR A WRIT OF CERTIORARI
Appearances:
For the Petitioner:
George Berka,
57 Concord St.
Waterbury, CT 06710
(203) 681-7035 ;

For the Respondent:
Letitia A. James,
Counsel for the Defendant
The Capitol
Albany, NY 12224

August 25th, 2021

MS 3'
_-=ire OF

QUESTION PRESENTED
Given our existing climate emergency, should the Indian Point Nuclear Power Plant be
returned to service?

TABLE OF CONTENTS
QUESTION PRESENTED

1

TABLE OF AUTHORITIES

n

INTRODUCTION

1

OPINIONS BELOW

1

JURISDICTION

1

STATEMENT OF THE CASE

2

STATUTORY PROVISIONS INVOLVED

17

REASON FOR GRANTING THE PETITION

17

CONCLUSION

17

Page | i

I

■

? -. I
V.*.

-if-

- Olu

TABtE-eF-AWHOR-I-T-ffiS
I.* #21-908, U.S. Court of Appeals for the 2nd Circuit, “Appeal”, Filed: 04-21-2021,
Disposed: 07-06-2021.

■*

2. #20-cv-516, New York Northern District Court at Albany, “George Berka v.
Governor Andrew M. Cuomo”, Filed: 05-07-2020, Disposed: 03-26-2021.

5.

Page | ii

r

INTRODUCTION
This case pertains to the premature shutdown of the Indian

Point Nuclear Power Plant

located in Buchanan, New York. Entergy, the plant’s former

owner; was in the process

of seeking an additional 20-year license extension for the plant from the Nuclear
Regulatory Commission, for its continued operation. Then-Governor Andrew Cuomo,
however, forced Entergy to retire the plant early through obstructionist tacti

cs, such as

refusing to grant Entergy a permit to draw cooling water for the plant from th
River. As a result, the plant’s two operating reactors shut down

e Hudson

in April of 2020, and in

April of 2021, respectively.
The Petitioner had subsequently filed his complaint against Mr. Cuomo (#20

-cv-516) in

New York’s Northern District Court at Albany on
or about May 7th, 2020. In his
complaint, the Petitioner had sought to have Indian Point returned to

service. The

grounds for the Petitioner’s complaint were two-fold: environmental (climate change)
and grid reliability concerns, which are further explained below. On March 26th
, 2021,
Chief Judge Glenn Suddaby dismissed the Petitioner’s complaint
on the grounds that
the concerns in it were, essentially, “farfetched and unlikely.”
The Petitioner
subsequently appealed the. matter to the U.S. Court of Appeals for the 2*d Circuit

on
April 21- 2021. The Court: dismissed the matter as “moot" on June 2-, 2021, since
Indian Point’s second reactor had already shut down by then, rendering the plant
completely off-line. On June 15th, 2021, the Petitioner filed a Motion for
Reconsideration with the Court, which was
also denied on July 6*, 2021, bringing us to
this Petition for Certiorari.

Page |, 1

OPINIONS BELOW
The opinions of the U.S. Court of Appeals for the 2 nd Circuit (#21-908) and the New
York Northern District Court at Albany (#20-cv-516) in this matter are listed in the
Appendix. They are also available on line on the PACER web site.

JURISDICTION
The U.S. Court of Appeals for the 2nd Circuit had entered its final judgment on July 6th,
2021, Therefore, this Court’s jurisdiction is hereby invoked under 28 U.S.C. § 1254 (1).

STATEMENT OF THE CASE
It is now widely accepted that man-made climate change is real and that its destructive
effects are beginning to accelerate with each passing year so much, that it constitutes a
genuine emergency. It is also widely accepted that some of the most heavilycontributing human activities to climate change are electrical power generation,
transportation, and heavy industry. In The arena of electrical power generation,
nuclear power reactors are recognized as being true carbon-free generators, which
makes them critically important in our efforts against climate change. Nuclear power
reactors also posses the important attribute of being reliable as well as carbon-free, an
attribute that is not shared by the renewable, wind and solar — powered generators.
Therefore, it is of utmost importance that our existing nuclear power reactors be
preserved, and kept in service for as long as possible. *

' :;

But orchestrating the premature shutdown of the Indian Point Nuclear Power Plant,
Mr. Andrew Cuomo had effectively taken a “giant step backwards” against climate
Page I 2

change, and placed us on exactly the trajectory that we cannot afford to be on. Indian
Point had provided New York City and its surrounding communities with

over 20% of

their electricity, all of it carbon-free. This electricity has now been entirely replaced
with carbon-emitting electricity from the Cricket Valley and Competitive Power
Ventures natural gas-fired power plants. By replacing its nuclear power with gas, New
York City has also sacrificed another important attribute in addition to carbon-free
power: grid reliability.
Indian Point actually offered tangible, physical protection to the people of New York
City and the surrounding communities because it was able to store a prolonged fuel
supply (of greater than one year) on site, and was therefore able to operate reliably
during periods of extreme cold, such as the Polar Vortex. This was m contrast to the
natural gas-fired electrical generators that replaced Indian Point, which rely on “justin-time” delivery of their fuel, and must sometimes cut back their output during periods
of extreme cold, either because the gas is prioritized for home heating, or because the
gas is physically unable to move through the pipelines in sufficiently large quantities,
due to its pressure drop at very low temperatures. Wind and solar

sources also cannot

be fully relied upon during cold spells, because these periods are often accompanied by
calm, wind-less weather, as well as cloud cover, which blocks the sun. Similarly, coal
piles may also freeze, potentially rendering coal-fired generators useless as well, and
there are virtually no coal-fired generators left in the Northeast. This leaves only

one

type of generator, with over a year’s worth of fuel deep in its core, under its reinforced
concrete dome, exceptionally well-suited to deliver large amounts of continuous, reliable

Page | 3

power in these types of extreme weather events, when it is needed the most — the
-,V

nuclear power plant. -'

There’have been cases' during past Polar Vortex events in the Northeast when oil-fired
“peaker plants” had to be brought on line, due’to the inability of the gas plants to
continue producing sufficient power, for the reasons mentioned above. These oil-fired
plants typically have their fuel oil delivered by barge, but frozen rivers hampered this
method of delivery, leaving tanker trucks as the only viable option. In areas where
roads were obscured by ice, snow, or accidents,, some peaker plants actually came
perilously close to running out of fuel, which would have resulted in power outages.
Since virtually all residential boilers, be they natural gas or oil-fired, also need
electricity to operate in addition to their fuel, power outages during such a period of
extreme cold may well have been life-threatening. A Reuters article from October of
2014 entitled “U.S. Power Grid Survived Polar Vortex, But Only Just”, shows just how
close we came, and that it was only a matter of time before taking these sorts of
gambles would “bite us.’b Well, unfortunately, onir'“luck ran out” this past February in
Texas, when a “perfect storm” of prolonged, cold weather; combined with an over­
reliance on unreliable wind, solar/ and gas-fired electrical generators, caused over 100
people to freeze to death. The Plaintiff had attempted to call out exactly this type of
dangerous situation in his Complaint l:20-cv-00516 before the Northern District Court,
where Judge Suddaby dismissed it as “essentially far-fetched and dnlikely.” It doesnt
seem so “far-fetched” now, does it? This Court is therefore urged to take action where
the last two courts did not. Otherwise,’ these unfortunate events may continue to repeat
themselves. The solution for preventing these tragedies in the future is fairly
Page | 4

straightforward, and basically comes down to just the fuel type used for the electrical
generators. Nuclear power reactors therefore deserve, preferential treatment,
specifically because of their fuel type, which gives them their inherent reliability,
unmatched weather resiliency, and hence great value.

The Plaintiff Had Correctly Predicted the Deaths in Texas (10) Months Before
they Actually Happened
The Plaintiffs “core argument” in Complaint # l:20-cv-00516 was that he may freeze to
death if a power outage occurs during an event of extreme cold, and that Indian Point
helped to guard him from this. He made this argument on May 7th, 2020, a full (10)
months before a similar event occurred in Texas this past February, causing over 100
people to suffer exactly this fate. This fact should be weighed heavily by this Court,
since it clearly demonstrates the potential consequences of removing these reliable
nuclear generators from service, and replacing them with unreliable, wind, solar, and
natural-gas-fired electrical generation.

New York City’s Electrical Grid May Now Lose Two Thirds of its Reliability
without Indian Point
In his sister Complaint EL21-61-000, filed before the Federal Energy Regulatory
Commission, the Plaintiff had also attempted to analyze the adverse effects that Indian
Point’s closure will have on the, local electrical grid. With Indian Point on line, the grid
was fairly “healthy”, with a 1-day blackout expected to occur about once every 32 years.
Now, with Indian Point gone, this value had decreased to 9.2 years, even below New
Page | 5

York State’s minimum standard of one blackout every ten years. So the electrical grid
is now only 29% as reliable as it was in 2020, when both units of Indian Point were on
line. Would you be willing to purchase an automobile, for example, that was only 29%
as reliable as a competitor’s automobile? If not, then why would we want to tolerate
such a low reliability standard for our electrical grid, one on which critical facilities,
such as hospitals-, depend?

NYISO’s Risk Assessments Were Not Completed
Each year, the NYISO (New York Independent System Operator) prepares a ..
“Reliability Needs Assessment” (RNA) which, among other things, assesses the
reliability of the electrical grid. In the years 2014, 2015, and 2016, the RNA’s raised
significant “red flags” about .-grid,reliability without Indian Point,. For example, the,
2014 RNA noted that, “Significant violations of transmission security and resource
adequacy would occur in 2016 if the Indian Point Plant would retire as of that time.
Without Indian Point, an alarmingly high LOLE (“Loss of Load Expectation” or a
blackout) of 0.31 was calculated, indicating a blackout every 3.2 years. This is three
times higher than the State’s minimum, and ten times higher,than when Indian Point
was m service.
The predictions offered in the 2015 and 2016 RNAs were equally alarming. The
summary in the 2015 RNA stated that “Substantial uncertainties exist in the next ten *
years that will impact system resources..; Depending on the units affected, the NYISO
may need to take swift action to maintain grid reliability:”1 Siriiilarly, the 2016 RNA
declared that, “This scenario simulates the retirement of the Indian Point Energy
Page | 6

Center by removing about 2600 megawatts of capacity from Zone H and finds that
significant violations of resource adequacy criteria would occur immediately in 2017.”
The Zonal Capacity Risk Assessments are also of particular- significance, since the
location of a generator relative to a given service area is important, in addition to its
capacity. Indian Point is located close to the areas of peak electricity demand, while the
three gas-fired plants slated to replace it are more scattered, with one located in
Bayonne, New Jersey, another in Orange County, and the third in Dutchess County.
Operational experience has shown that the existing zonal arrangement is acceptable,
even during periods of peak demand, provided Indian Point is operational. What is not
known, however, is whether the new, more dispersed plant locations, will be acceptable
as well. This is why the “Zonal Capacity Risk Assessments” are conducted. The 2018
RNA made it clear that the Zonal Capacity Risk Assessment for Zone H was not yet
complete and noted that, “the impacts of removing capacity on the reliability of the
transmission system and on transfer capability is highly location dependent.” For this
reason, the Complainant asks that the complete reliability analysis for the closure of
Indian Point, including any outstanding Zonal Capacity Risk Assessments, be finalized
and evaluated prior to Indian Point’s closure. If the reliability criteria cannot be met
without Indian Point, then Indian Point should remain m service.

Other Important Takeaways from NYISO’s Analyses
NYISO s analyses communicated.to the government of the State of New York, in no
uncertain terms, that their electrical grid will be significantly less reliable with Indian
Point gone. They issued what amounted to several stark warnings. New York’s
Page | 7

government, intentionally or not, failed to act On these warnings. So the Complainant
is now asking this Court to please step in and do this for them, plain and simple.
Some of the key questions now follow. The fact that, they are written in question form is
intentional. They are deliberately meant to be “thought provoking”, to encourage this
Court to “dig deeper”, and to fully examine the issues at hand.

’

NYISO’s “Generator Deactivation Assessment” does require some research,
“homework”, and “reading between the lines” to better understand. At first glance, it
may not appear very informative to a non-technical person, or a layman. Fortunately,
when reading the assessment, the Complainant had “help”, in the form of Mr. Specter’s
well written, “Reliability Analysis for Riverkeeper,” which is available upon request.
This report helps to bring many things in NYISO’s Assessment to light, and only
encourages one to seek additional information, leading to the following questions for
NYISO. The Complainant asks this Court to consider these questions carefully, as the
answers to them may expose unacceptable reductions in grid reliability without Indian
Point on line, and may thus justify the need for Indian Point to remain in service.

New Grid Reliability Levels Relative to the 2019 Baseline
In Table 1 on Page 4 of NYISO’s Assessment, the “LOLE” figure increases from 0.028 in
2019 to 0.108 in 2021, and finally to 0.168 in 2027. “0.108 / 0.028” yields 3.8, and “0.168
/ 0.028” yields 6.0. Does this mean that in 2019, the electric grid was 3.8 times as
reliable as it will be in 2021,: after Indian Point is fully off line? Does it also mean that
in 2019, the electric grid was-fully (6) times as reliable as it will be in 2027? Stated
another way, does this also mean that the grid will be 74% less reliable in 2021, and
Page I 8

84% less reliable in 2027, than it was in 2019? If so, then these are significant
reductions in reliability, are they not?

Zoning Capacity Assessments
Has a “Zoning Capacity Assessment” been performed for Zone “H”, which includes
Westchester County? In Figure 28 in NYISO’s 2018 “Reliability Needs Analysis”, Zone
“H” has been identified as “EZR”, which means that it “Exceeds Zonal Resources”.
These Zoning Capacity Assessments are performed because a generator’s location
relative to an area of high electrical demand (such as a major, metropolitan area) is also
important, in addition to the generator’s size, or generating capacity. This is because
certain areas are more constrained than others in both electrical generating capacity
and transmission capability, (i.e., having sufficient power lines to get the power from
where it is produced to where it is needed). Westchester County, for example, is already
fairly highly constrained, but the arrangement we have today works satisfactorily well,
with no issues, because Indian Point is right in the center of it, and powerful, at over
2,000 megawatts. Hence, ample power is now available close to where it is needed, and
does not have to travel far to get there. This may not be the case with Indian Point
gone, however, because its replacement plants (Bayonne, CPV, and Cricket Valley), are
much farther away from where the power is needed. So, should this “Zoning Capacity
Assessment” be performed before Unit 3 of Indian Point shuts down, to make certain
that no issues arise? If this Assessment cannot be performed before April 30, 2021,
should Unit 3 be kept online-until it can be completed? If the results of this , .

Page | 9

Assessment determine that Indian Point is indeed required, should Indian Point be
kept on line permanently? Logic would dictate that the answers here be “yes.”

Aging Infrastructure
Next, is it wise to rely too heavily on New York City’s aging natural gas plants and
infrastructure? A considerable fraction (22%) of these plants is beyond the age of where
95% of similar technology plants have already been retired. Some have been given
ratings of “imminent deactivation” by NYISO, which means that they can fail at any
time. A failure of any one of these plants would only exacerbate the above situation,
and decrease the grid reliability even further. Indian Point, though also close to 50
years old, is in a different, situation, however. It is especially robust to begin with, has
been well maintained, and was expected to be licensed by the N.R.C. for continued
operation until at least the year 2035. With continued maintenance, it may be able to
operate even longer.

The Role of the Bayonne Gas Plant
The Bayonne gas plant is already connected from Bayonne, New Jersey, to Brooklyn via
a 6.5 mile under-sea cable. This would suggest that is it already being used to supply
power to New York City. In fact, isn’t the Bayonne plant already being used as a
“peaker” plant? If it is, then has the plant been giveh “double credit”, in that it will not
be able to replace as much of Indian Point’s lost power as was claimed? If so, will this
cause the grid reliability to decrease even below the values mentioned in NYISO s 2017
Assessment?
Page | 10

Carbon-Free Sources Were Promised for Indian Point’s Replacement, but Not
Delivered
Lastly, the commitment that Governor Cuomo made to the people of New York on
January 9th, 2017, the day that the closure of Indian Point was announced, should be
noted. The Governor had pledged that, “Replacement Power Will Be in Place that Adds
No New Carbon and Will Have Negligible Impact on Ratepayers.” As we now know all
too well, at least the first half of this pledge had not been met, as Indian Point is being
replaced almost entirely with fossil-fired power. Given the dire state of the climate
situation today, this single item should be considered a serious1 failure, perhaps serious
enough to warrant returning Indian Point to service on this basis alone.
It is also interesting to note that NYISO’s own “RNA” reliability analyses from the
years 2014, 2015, and 2016 issued stern warnings about the grid reliability being,
essentially “intolerably low” if Indian Point had closed at that time, before the
replacement CPV and Cricket Valley plants were built. Then, lo and behold, Cricket
Valley Energy Center came on line only ten days before Unit 2 of Indian Point was shut
down, in April of last year. Could, this have been a coincidence? The schedules for
Cricket Valley s opening and Indian Point’s shut-down seem to have coincided quite
well. It typically takes years .to plan, design, and build a large electrical generating
facility, such as Cricket Valley. Could it be that the Governor knew full well that
Indian Point would be replaced with gas when he made that pledge to the people of New
York in January of 2017? Given our current, .dire climate situation, this would only add
insult to injury.

;

.

Page | 11

,

Some Other Important Things to Consider
Indian Point and Mr. Biden’s Bold Climate Agenda

•

Recently, President Biden had:unveileda boM,;new climate plan that promises to yield
numerous benefits, both economic and environmental. His plan'cails for the expanded
use of wind and solar power, as well as electric vehicles. Money for nuclear research ■
and the development of the next generation of nuclear power reactors is included as
well, and the prospect of the many high-quality jobs that these efforts will generate is
also mentioned. These are all great things, to be sure. Unfortunately,-the next
generation of nuclear reactors will probably not arrive soon enough, and the proposed
wind and solar sources are not sufficiently energy-dense to make any meaningful
progress on the climate front, in the limited amount of time that we have. Only our
existing nuclear power reactors, such as Indian Point, can do that. They are safe,
mature, proven out, paid for, running reliably, clean, carbon-free, and have many years
of useful life left in them.
Perhaps it would be worthwhile to consider modifying the proposed Climate Plan in this
regard. The “energy portion” of the plan should instead consider having existing
nuclear reactors as the primary backbone of our energy system, with the renewable
sources being secondary. This would enable the bulk of our most reliable and carbonfree electrical generating capacity [nuclear] to be preserved, thereby maximizing the
possible benefit for grid reliability and the climate. This may also be one of the most ■
economically attractive options there is,'as it'might be possible to simply return many
of the recently-shuttered nuclear plants to service with minimal rework. Billions of"
dollars have been promised for this new climate plan. Only a small fraction of this
Page | 12

amount would be required to put our existing assets to good use. What should be
avoided at all costs is the,current and widespread practice of replacing shuttered
nuclear with gas.

Should Indian Point be Nationalized?
If an agreement for continued operation of the plant cannot be reached with the current
owners, perhaps one option might be for the Federal Government to simply nationalize
Indian Point. Though this approach might seem controversial at first glance, it may
prove to be a viable option. Some immediate benefits would be the potential availability
of federal funding for the plant, and the option to place it under federal jurisdiction.
This move, if exercised, could potentially resolve many of the “pitfalls” that led to the
closure of the plant in the first place. Once under Federal control, Indian Point’s
“chances of survival” could immediately improve, as new options for it could present
themselves. For example, the plant could be operated by a government entity, such as
the Department of Energy, via Argonne National Laboratory (Idaho Labs), or leased
back to a qualified and interested nuclear operator. The two main benefits of this
approach would be that, firstly, the plant would remain in service, and thus continue to
provide its important environmental, grid reliability, and economic benefits. Secondly,
under Federal jurisdiction, it would be insulated and protected from the hostile
influences that sought to bring about its demise in the first place. It would be
important make every reasonable effort to .fairly compensate all existing owners for the
plant, and eminent domain should be considered only as a last resort.

Page | 13

.

Should Other Shuttered Plants be Returned to Service as Well? ■
Along these same lines, it may also be worthwhile, for the Federal'TG"ovemm-ent—t-©——
consider acquiring and returning to service some of the other reactors that have been
shuttered in recent years, such as New Jersey’s Oyster Creek, Massachusetts’ Pilgrim,
California’s San Onofre, Wisconsin’s Kewaunee, and Iowa’s Duane Arnold. To do this*
economically, these reactors would have to be granted waivers on the post-Fukushima.
upgrades, and be “grandfathered-in”, and permitted to resume operation largely “as
they were”. This approach could return a total of 4600 megawatts of clean, safe
affordable and reliable electricity to the grid.

The Parable of Dusco Popov and Pearl Harbor
If we had information that would have prevented the tragedy at Pearl Harbor, should
we have acted on it? It turns out that we did, and the failure to do so is still seen as a
far - reaching, and embarrassing failure of our intelligence community. Dusco Popov
was a Yugoslavian national, who was recruited as a spy by the German military
intelligence service in the early years of the Second World War. ■ Having witnessed
atrocities committed by the Nazis against his people, Popov developed a deep aversion
toward Nazism, and decided to become a double agent for the British. Perhaps his best
known contribution to the war effort was his convincing of the Germans that the D -Day
landings would take place in Calais, France, instead of Normandy. This is credited

«

with saving numerous allied lives, and perhaps helping to insure the success of the •:
allied invasion itself; as it concentrated the bulk of the G erman defenses at Calais, and
thus reduced them considerably in Normandy.
Page'!' 14

Not as well known is the information that Popov had supplied to then — F.B.I. director
J. Edgar Hoover, warning him thafcan attack by the Japanese on Pearl Harbor was
imminent. This is strongly corroborated by a telegram that Popov had in his possession
when he arrived in New York, in August of 1941. Hidden on the face of the telegram
was a microdot message to Popov, asking for defense information about U.S. and
Canadian air forces, as well as a series of questions the Japanese had asked their
German allies to answer. One third of these questions pertained to the defense
installations around Pearl Harbor. The Germans had requested ""sketches showing the
exact locations of the Hickam, Wheeler, and Kaneohe airfields, as well as installations
at Pearl Harbor, and detailed information about dredging, depth of water, torpedo nets,
anchorages, and the like.” This led Popov to conclude that an attack by the Japanese on
Pearl Harbor was likely, and he informed Hoover that it would probably take pi ace
“before the end of that year.”
It is not fully known if Hoover had chosen to not pass this information onto his
superiors, or if his superiors had been informed, but had simply not acted on it. It is
suspected that Hoover may have elected to not pass along Popov’s message at all, '
because he distrusted Popov, owing to the fact that Popov was a double agent, and was
therefore, doubly untrustworthy.” Regardless of what may have transpired there in
the months leading up to the attack on Pearl Harbor, one thing remains virtually
certain. Relaying this information to the White House and the Naval Command could
have had a profound effect, on how the events of the Second World War had unfolded.
At the very least, given adequate warning, the U.S. Pacific Fleet could have sailed out
to sea, where it would have been in a more advantageous position to face the incoming
Page | 15

Japanese fleet. The tight confines of the harbor and the clustering of the ships so close
together made the attack all that much more devastating.. Perhnns-t-he-l-i-v-es_oJLo ver
2,400 sailors could have beemsparedif'only Popov’s message had been passed along to :
the proper channels.
“How can this story possibly be relevant to the matter at hand,” one might ask?

. . ..

“Actually, quite a bit,” it turns out. The old sayings of, “An ounce of prevention is worth
a pound of cure,” and “Hindsight is 20-20,” come to mind here.
We have a historic opportunity here, much like J. Edgar Hoover had in August of 1941,
to “make the: right call.” The consequences of the decision to keep Indian Point on line
or not could prove to be equally profound. Although the prospect of world domination
by hostile powers is not at stake here, perhaps something equally significant is — the
future habitability of our planet. Deciding to keep Indian Point in operation could set a
positive precedent — the precedent of doing whatever is necessary to keep existing
nuclear power reactors in operation, as the backbone of our national, carbon-free energy
system. Thus, it could place us on a path towards reduced carbon emissions, and a
correct response to this climate crisis, starting today.
Likewise, choosing to shutter Indian Point, and replacing it with natural gas-fired
generation could set an equally far — reaching, though negative precedent. It could
“pave the way” for additional nuclear reactors to be retired.in the near future, and.
replaced with additional gas-fired generation. This would place us on exactly the. ,
“wrong path” of. increased carbon emissions, which would only exacerbate the climate
crisis, and make future efforts to address it all that much more difficult.
We are at an important juncture here today. The choice is ours.
Page | 16

STATUTORY PROVISIONS INVOLVED
Since the U.S. Court of Appeals for the 2nd Circuit had entered its final judgment on
July 6th, 2021, this Court’s jurisdiction is hereby invoked under 28 U.S.C. § 1254 (1).

REASON FOR GRANTING THE PETITION
The Petitioner believes that this Court should grant this petition for the following
reason: This matter is of a significant public importance because it gives this Court the
opportunity to take action and to set an example on perhaps one of the moet pressing
issues of our time - climate change. By returning Indian Point to service, this Court
can help to reverse this disturbing and harmful trend of nuclear power plant closures,
which have recently only exacerbated this climate emergency.

CONCLUSION
In light of the above, the Petitioner hereby requests this Court to grant his Petition for
a Writ of Certiorari. This Court has one final opportunity to reverse this deeply flawed
decision, and to return Indian Point to service. It is not too late, as heavy demolition on
the plant has not yet begun, and the plant may still be saved.
Respectfully submitted,

/L*

^
George Berka,
Petitioner

August 25th, 2021

Page | 17

